IN THE SUPREME COURT OF THE UNITED STATES
No. 19-757
Arizona Libertarian Party and Michael Kielsky, Petitioners,
v.
Katie Hobbs, Arizona Secretary of State, Respondent.
CERTIFICATE OF SERVICE
I hereby certify that on June 9, 2020 I served upon Respondent Katie Hobbs
Petitioners’ Reply to the Respondents’ Brief in Opposition via email. Pursuant to
Supreme Court Rule 33.2(b), I certify that the document contains 6 pages, excluding
the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Dated: June 9, 2020

/s/Oliver B. Hall
Oliver B. Hall
Counsel of Record
Center for Competitive Democracy
P.O. Box 21090
Washington, D.C. 20009
(202) 248-9294
oliverhall@competitivedemocracy.org
Counsel for Petitioners

